No. 19-1155
IN THE

Supreme Court of the United States
JEFFREY A. ROSEN, ACTING ATTORNEY GENERAL,
Petitioner,
v.
MING DAI,
Respondent.
On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE
I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 that I have, this 4th day of January, 2021,
served three copies of the Brief for the Respondent upon Petitioner Jeffrey A. Rosen,
Acting Attorney General, by causing them to be deposited with the United States
Postal Service, with first-class postage prepaid, addressed to counsel of record at the
addresses listed below:
Jeffrey B. Wall
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530
SupremeCtBriefs@USDOJ.gov
Counsel of Record for Petitioner
Jeffrey A. Rosen, Acting Attorney General

I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the petition to be served on the parties at the email addresses
listed above.
I further certify that all persons required to be served have been served.

David J. Zimmer
GOODWIN PROCTER LLP
100 Northern Ave
Boston, MA 02210
dzimmer@goodwinlaw.com
(617) 570-1000
Counsel for Respondent
January 4, 2021

2

